<html>
<title> - CHILD SUPPORT ENFORCEMENT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                       CHILD SUPPORT ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 1998

                               __________

                           Serial No. 105-89

                               __________

         Printed for the use of the Committee on Ways and Means



                    U.S. GOVERNMENT PRINTING OFFICE
60-898                      WASHINGTON : 1999



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman
PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, George                  JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
                     A.L. Singleton, Chief of Staff
                  Janice Mays, Minority Chief Counsel
                                 ------                                

                    Subcommittee on Human Resources

                  E. CLAY SHAW, Jr., Florida, Chairman
DAVE CAMP, Michigan                  SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               FORTNEY PETE STARK, California
MAC COLLINS, Georgia                 ROBERT T. MATSUI, California
PHILIP S. ENGLISH, Pennsylvania      WILLIAM J. COYNE, Pennsylvania
JOHN ENSIGN, Nevada                  WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona
WES WATKINS, Oklahoma

Pursuant to clause 2(e)(4) of Rule XI of the rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic from. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                            C O N T E N T S

                              ----------                              
                                                                   Page
Advisory of May 12, 1998, announcing the hearing.................     2

                               WITNESSES

U.S. Department of Health and Human Services, Donna Bonar, 
  Director, Program Operations Division, Office of Child Support 
  Enforcement, Administration for Children and Families..........     7
                              ----------                              
Bacarisse, Charles, Harris County, TX............................    56
Broward County Support Enforcement Division, Judith Fink.........    63
Center for Policy Research, Jessica Pearson......................    75
Connecticut Department of Social Services, Diane M. Fray.........    19
CSE* Child Support Enforcement Co., Richard (Casey) Hoffman......    40
Georgia Department of Human Resources, Jacqueline M. Jennings....    35
National Resource Center on Domestic Violence, and Wisconsin 
  Coalition Against Domestic Violence, Kathleen Krenek...........    90
New Jersey Division of Family Development, Alisa Griffin.........    27
Vermont Office of Child Support, Jeffrey Cohen...................    13

                       SUBMISSIONS FOR THE RECORD

American Payroll Association, Rita Zeidner, statement............   111
Association for Children for Enforcement of Support, Inc., 
  Toledo, OH, Geraldine Jensen, statement........................   115
California, State of, Department of Social Services, Eloise 
  Anderson, statement............................................   123
Child Support Network, Inc., Phoenix, AZ, Daniel N. Jacobson, 
  letter and attachments.........................................   126
Children's Rights Council, David L. Levy, statement and 
  attachments....................................................   133
Vermont, State of, Agency of Human Services, Cornelius D. Hogan,.


                       CHILD SUPPORT ENFORCEMENT

                              ----------                              


                         TUESDAY, MAY 19, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:06 p.m., in 
room B-318, Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr., (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.001
    
    [GRAPHIC] [TIFF OMITTED]60898A.002
    
    [GRAPHIC] [TIFF OMITTED]60898A.003
    
    Chairman Shaw. If everybody could find a seat, we will 
commence with today's hearing.
    Today we are continuing our series of oversight hearings on 
the 1996 Welfare Reform Law. Our hearing today spotlights the 
child support enforcement program. We're delighted to have 
three very strong panels of witnesses. The first panel will 
present testimony on two of the most important provisions of 
the 1996 child support reforms, the New Hire Directory, and the 
requirements on paternity establishment. It would appear at 
this early stage that the implementation of New Hires is going 
smoothly and that many States are having remarkable success in 
implementing the paternity establishment requirements.
    I want to especially thank the Administration for allowing 
Donna Bonar from the Department of Health and Human Services to 
testify today. More than anyone else, Ms. Bonar knows what is 
happening with the New Hire program around the country; but 
especially, she can tell us about the very important role that 
HHS plays in advising the States and establishing and operating 
the national directory.
    I'd like to caution our members that Ms. Bonar is here to 
tell us about the New Hire Directory, but is not expected to 
comment on any aspect of Administration policy on child support 
or any other. She is an expert witness on child support; not a 
political witness here to defend the Administration's policy.
    The second panel will address what I believe will become an 
issue of increasing importance. Believe it or not, the Federal-
State IV-D child support program is not the only game in town. 
There are a select number of counties and cities around the 
country that conduct their own child support programs outside 
of this system. In addition, many private attorneys provide 
assistance to parents owed child support, and there is an 
increasing number of privately owned companies that are 
providing child support services, either directly to custodial 
parents or under contract with local or State government.
    We hope to find out how effective these programs are and 
how they are connected, if at all, with the IV-D program. We 
also hope to explore in subsequent hearings whether it is 
appropriate for the program to cooperate with these outside 
programs. And if so, whether we need legislation to promote 
this cooperation.
    I'm also pleased that these panels include a witness from 
Georgia who will discuss a flaw that has long been obvious in 
the child support programs. Specifically, we treat certain 
veterans' benefits differently than we treat other forms of 
income, thereby making it possible for non-custodial parents 
who receive certain veterans' benefits to protect some of their 
income from child support payments. I want to recognize the 
fine work of Mac Collins on this issue. With Mac's assistance, 
we hope to work with the Veterans' Affairs Committee to address 
this problem.
    Finally, during consideration of last year's Labor-HHS-
Education appropriation bill, I promised our colleagues in the 
Senate that we would examine the issue of domestic violence and 
how it impacts women participating in the child support and 
TANF programs. We are very pleased to have Dr. Jessica Pearson 
here from Denver to provide us with research information on the 
number of women applying for child support who have been 
abused, and whether the abused mothers wanted to be exempt from 
the State child support programs because of the threat of 
abuse. We will also hear from Kathleen Krenek, who directs the 
Wisconsin Coalition Against Domestic Violence, about State 
programs designed to help victims of domestic violence, 
including victims who are enrolled in public programs.
    So we have a full day ahead, and Sandy, do you have any 
opening remarks at this time?
    Mr. Levin. Thank you, Mr. Chairman. The 1996 Welfare Reform 
Law, the Personal Responsibility and Work Opportunity 
Reconciliation Act, reinforced how important child support is 
to the economic well being of children. In the law, we 
instituted a number of innovations to improve the way the child 
support system works, enabling us to improve collections and 
get money to families struggling to become and remain 
economically self-sufficient.
    We have recently revisited the child support program and 
enjoyed broad bipartisan support on a bill that seeks to 
enhance performance through meaningful incentives, and to 
further emphasize the importance of establishing statewide 
automated information systems in the program. These 
developments have fostered a series of continuous improvement 
in the child support system.
    Today, in that same spirit, we'll hear about efforts to 
improve paternity establishment and the innovative national 
Directory of New Hires are impacting the program. We recognize 
that the system can be considered truly successful only if it 
works for those in the most difficult circumstance.
    Senator Murray from Washington has been instrumental in 
making us aware of the plight of families that are victimized 
by domestic violence. We have invited experts from the field of 
domestic violence to tell us about the challenges faced by 
those in violent family situations and the way that the child 
support system can both assist and protect them.
    Finally, we'll turn our attention to a relatively new 
topic, local child support collection efforts outside of the 
Federal and State, Title IV-D, child support program. We look 
forward to hearing about developments in this area, so that we 
can explore how the system is working as a whole. We have a 
strong interest in continuing to pursue innovations in the 
child support field, but we must proceed with some caution, to 
be sure that the best interests of children remain at the 
heart--at the very heart--of all of our efforts. Thank you, Mr. 
Chairman.
    Chairman Shaw. Thank you.
    Our first witnesses--if they would come to the table--Donna 
Bonar is the Director of the Program Operations Division, 
Office of Child Support Enforcement, of the U.S. Department of 
Health and Human Services; Jeffrey Cohen is the Director, 
Office of Child Support, in Waterbury, Vermont; Diane Fray, IV-
D Administrator, the Department of Social Services, Child 
Support Program, Hartford, Connecticut; Alisha Griffin, who's 
the Acting Assistant Director from New Jersey Division of 
Family Development, in Trenton, New Jersey; and, Jacqueline M. 
Jennings, Manager, Office of Child Support Enforcement, 
Department of Human Resources, Columbus, Georgia.
    Because of members being out, we are starting late today. 
I'm going to try to enforce the five minute rule. That means 
I'll bring the gavel down at the end of five minutes, and I 
will tell each of you that your full statements have been given 
to the committee and will appear in the record. I would invite 
you to summarize in any way you might be comfortable. Ms. 
Bonar.

    STATEMENT OF DONNA BONAR, DIRECTOR, PROGRAM OPERATIONS 
DIVISION, OFFICE OF CHILD SUPPORT ENFORCEMENT, U.S. DEPARTMENT 
                  OF HEALTH AND HUMAN SERVICES

    Ms. Bonar. Mr. Chairman, members of the committee, my name 
is Donna Bonar, and I'm the Director of the Division of Program 
Operations in the Office of Child Support Enforcement. Thank 
you for giving me the opportunity to testify today on the role 
of the National Directory of New Hires in strengthening the 
child support enforcement program.
    I'm very pleased to report that we have met the October 1, 
1997 statutory deadline for implementing the National Directory 
of New Hires, and that all 50 States are providing data to the 
directory. As of May 1998, the National Directory of New Hires 
has 23 million new hire records, 159 million quarterly wage 
records, and 9 million unemployment insurance claim records. In 
addition, over 100 Federal agencies have transmitted over 
350,000 new hire records and roughly 5 million quarterly wage 
records. These reports represent 96 percent of all Federal 
employees.
    The real benefit of the National Directory of New Hires is 
that our Nation's children are receiving increased child 
support collections. Case workers are receiving up-to-date 
employment information available on absent parents, in order to 
be able to locate parents, establish paternity, and to enforce 
child support orders.
    Welfare reform expanded the Federal parent locator service 
by requiring the Secretary of Health and Human Services to 
develop the National Directory of New Hires. The directory is a 
database of information for all newly hired employees, 
quarterly wage reports, and unemployment insurance claims, to 
assist States in locating child support obligors who are 
working other States.
    I'm glad to report that we are also on target to meet the 
implementation date for the Federal Case Registry, October 1, 
1998. Federal law requires that the Secretary of Health and 
Human Services develop a national database of all child support 
orders. As we did in establishing the National Directory of New 
Hires, we are using a collaborative model to develop the 
Federal Case Registry and look forward to reporting on it's 
success later this year.
    I would like to turn my attention to our early results of 
the National Directory of New Hires and to answer the question, 
``so what does this mean for children?'' Beginning October 1, 
1997, we started matching State locate requests against the 
National Directory of New Hires. Since then, we have matched 
700,000 interstate locate requests against individuals in the 
National Directory. When States receive matched information 
from the National Directory of New Hires, they are able to 
quickly establish an interstate case or enforce an existing 
order.
    It is very important to remember that this success 
represents only the first step in getting more support for 
children. Once the Federal Case Registry is operational on 
October 1, 1998, new data in the National Directory of New 
Hires will be matched proactively to child support cases and 
order information in the Federal Case Registry. States will no 
longer have to submit individual locate requests. Instead, 
States will automatically receive current employment 
information on child support obligors any time that individual 
takes a new job. States will also receive information on 
obligors quarterly wage and unemployment insurance claims. We 
believe that the simultaneous establishment of these two 
databases will revolutionize States' ability to process child 
support cases across State line.
    Since the program's inception, the implementation strategy 
has been a cooperative model, rather than one of dictating 
systems requirements to the States. As a consequence, the 
entire development of the system evolved to better meet the 
users' needs.
    The National Directory of New Hires is maintained by the 
Federal Office of Child Support Enforcement and is housed at 
the Social Security Administration's national computer center. 
Our collaboration with the Social Security Administration has 
been instrumental in the expeditious implementation of the 
National Directory of New Hires. Housing the database at Social 
Security's computer center provides that the database is 
maintained in a world class computer center with state-of-the-
art security standards. Due to this partnership, we have been 
able to assemble the National Directory of New Hires in less 
time and at a lower cost than if we had reproduced the existing 
Social Security Administration infrastructure.
    Finally, technical assistance played a critical role in 
implementation. The Office of Child Support Enforcement 
provided technical assistance to every State and territory 
through the design and implementation stages, covering issues 
from employee training to systems support. Technical assistance 
also included information on our web site, videos, guides to 
implementation and data submission, brochures and information 
packets, and a variety of printed material for States to use to 
train their own employees and to conduct outreach to employers 
and employer groups.
    In conclusion, we are pleased to report that our efforts to 
implement the Congressional legislation, creating a National 
Directory of New Hires, has been a success. Mr. Chairman, and 
distinguished members of the subcommittee, thank you for your 
invitation to testify today.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.004
    
    [GRAPHIC] [TIFF OMITTED]60898A.005
    
    [GRAPHIC] [TIFF OMITTED]60898A.006
    
    [GRAPHIC] [TIFF OMITTED]60898A.007
    
    Chairman Shaw. Thank you.
    Mr. Cohen.

STATEMENT OF JEFFREY COHEN, DIRECTOR, OFFICE OF CHILD SUPPORT, 
                         WATERBURY, VT

    Mr. Cohen. Mr. Chairman, thank you for inviting me to 
testify today about Vermont's child support program, 
particularly about our efforts to establish parentage.
    As the committee probably knows, establishing parentage is 
prerequisite to everything else we do. You can't have a child 
support obligation without having parentage established. You 
can't establish medical support without parentage. And, kids 
won't even know both parents without establishing parentage.
    Like the rest of the country, Vermont has experienced 
rising out of wedlock birth rates. In our State, one out of 
four kids is born out of wedlock. In the rest of the country--
some jurisdictions--have over 70 percent of their children born 
out of wedlock.
    It probably is no surprise also that a disproportionate 
number of the children in the welfare program under TANF are 
also kids who are born out of wedlock. In our State, the 
portion of our TANF caseload born out of wedlock is more than 
double the general population. What this means for the child 
support agencies is that they have a disproportionate share of 
these difficult cases to work in the first place, compared to 
the rest of the population.
    We've come a long way in our program. We started out with 
criminal actions in 1982--when kids were called bastards--and 
establishing parentage was a criminal action. We did very few 
cases back then. We've since bypassed the stage of paternity, 
which tends to characterize fathers as obligors, and we've 
moved to the concept of parentage, which focuses on all the 
rights of the kids, including child support, custody, and 
visitation.
    We've had, I'm pleased to say, considerable success since 
the 1980's. In 1988, only 42 percent of our out of wedlock 
cases had parentage established. By 1996, we were up to 82 
percent, and that's using the cases in our IV-D caseload, as 
opposed to the entire population.
    While it's encouraging to know that we're only 6 percent 
away from Congress' goal of 90 percent, I must say that, even 
using the Statewide measure, that's doing fairly well. I 
believe the next 6 percent are going to be more and more 
difficult to address. The cases are harder and harder.
    We've also had some other outcomes that coincide. We've had 
reductions in teen births during this period of 40 percent 
reduction to births to teens between the ages of 15 and 17, 
during the same period.
    People may ask how we did it. I wish I could say there was 
a single magic bullet. The only single thing I can say is it 
takes a lot of hard work. It would be nice if parentage 
establishment were as simple as applying for a driver's 
license. But unfortunately, in our caseload, we have many cases 
where the only information we get is that it was a one-night 
stand, a first name, and maybe a tattoo. And from there, the 
child support agency has to figure out who the father is. So 
this takes a lot of time and effort and we've made a lot of 
effort to do that. In fact, our case workers have prioritized 
those cases.
    Also, we have relied on automated systems, which we've had 
in place in our State as an integrated system since 1981. It's 
been tied into our welfare agency. What that meant is we've 
been able to start cases within a matter of weeks of 
application for public assistance. In the old days, I used to 
bring cases where kids were 15 years old. Now, we're doing it 
when the kids are six months old. It makes a big, big 
difference. Of course, that only works if you have a sufficient 
number of case workers to respond to the automated system.
    Also, we have a tight integration with our welfare agency. 
In cases where the custodial parent is unable to cooperate or 
refuses to, our welfare agency has been very good about 
applying sanctions to gain their cooperation.
    Also, genetic testing has played a big role in our 
improvements over the years. The cost of the tests are about 
$300 for the mother, the father, and the child. But, it has 
enabled us to be sure who the parents are, has eliminated all 
doubts, and I believe in many cases, has avoided court cases 
because there's no question about who the parents are.
    We have not relied yet on the voluntary acknowledgments of 
parentage that Congress required in PRWORA--not to the extent 
that other States have. That's because, in our State, the 
acknowledgments did not have a legal presumptive basis. But we 
anticipate that that will improve in time. Our acknowledgments 
do include information about visitation and custody as well. I 
understand from the Children's Rights Council that this is a 
unique feature.
    There are still some barriers to establishing parentage and 
perhaps Congress can help in a few of these areas. First, 
helping to locate parents is very important and Congress should 
do whatever they can to support ways to prevent people from 
avoiding the system. I believe the National New Hire Reporting 
process will accomplish that and will have an impact far beyond 
just wage withholding, but will also help find people who need 
to have parentage established.
    Also, Congress should continue to support the automated 
systems efforts, which are really critical to tracking down 
parents. And as laws change, we need to keep changing those 
systems.
    Congress can also support the effort by enhanced funding 
for genetic testing. As I said, if a question is ever raised, 
simply doing the test, can avoid a court hearing.
    And finally, I would hope that Congress would consider 
looking at ways to prevent out of wedlock births in the first 
place. Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.008
    
    [GRAPHIC] [TIFF OMITTED]60898A.009
    
    [GRAPHIC] [TIFF OMITTED]60898A.010
    
    [GRAPHIC] [TIFF OMITTED]60898A.011
    
    Chairman Shaw. Thank you, Mr. Cohen.
    Ms. Fray.

  STATEMENT OF DIANE FRAY, IV-D ADMINISTRATOR, DEPARTMENT OF 
      SOCIAL SERVICES, CHILD SUPPORT PROGRAM, HARTFORD, CT

    Ms. Fray. Mr. Chairman, Members of the Subcommittee, it is 
a pleasure to be here today to talk about new hire reporting. 
It has been too often the case that those with the moral and 
legal obligation to support their children, fail in this 
fundamental responsibility of parenthood. I view new hire 
reporting as an opportunity to get all children what they 
need--the financial support of their parents.
    One of the main challenges in the child support arena is 
the ability to obtain timely data regarding employment of 
noncustodial parents. Prior to the implementation of new hire 
reporting, the only financial data available was obtained from 
the IRS when the noncustodial parent filed his Federal tax 
return or from the quarterly wage data obtained from the 
Department of Labor.
    The usefulness of this data was limited, because it was 
anywhere from three months to one year old. By the time the 
data was received, and the child support worker sent out the 
appropriate forms to place an income withholding, the 
noncustodial parent had often already terminated employment. 
Child support professionals felt that they were always one step 
behind the noncustodial parent and could not obtain the 
necessary child support for the children of this Nation.
    Effective January 1995, Connecticut established a new hire 
reporting system. All employers maintaining an office or 
transacting business in Connecticut, were subject to this law 
and were required to report new employees within 35 days.
    Connecticut feels strongly that new hire reporting is a 
critical tool to the effective establishment and enforcement of 
child support. While we have mandated compliance by all 
employers, we provide the necessary vehicles to assist 
employers in meeting these requirements: toll-free fax lines, 
electronic reporting, use of Connecticut W-4 form, and a hot 
line for employer questions.
    One of the keys to our success has been this close 
relationship with the employer community. Through a coordinated 
effort of the Connecticut State agencies, employers are 
informed of their legal responsibilities through yearly 
mailings and an employer guide. IV-D staff from the New England 
States attend a yearly conference of the American Payroll 
Association, to provide information regarding both income 
withholding and new hire reporting. Presentations are also 
given to various employer and payroll organizations. Due to 
this continued association, the usable data has increased to 97 
percent in March 1998. Employers will cooperate because they 
want to do their part in ensuring all kids receive support.
    I believe that I have a reason to be excited about this 
resource. During calendar year 1997, over 30,600 noncustodial 
parents were matched through the new hire process. 24,000 of 
these parents had an existing child support order. For these 
matches, our staff were able to place more than 3,300 new 
income withholdings and transfer an additional 5,000 to new 
employers. From 1995 to the present, collections due to new 
hire reporting, have increased 13-fold, from $540,000 in 1995 
to $7.3 million in 1997, and a projection of $9.6 million or 
more for 1998.
    Additionally, under the new law, this data can now be used 
to establish child support orders. During 1997, over 10,200 
noncustodial parents without child support orders were matched, 
and new support orders were established for more than 5,500 
families.
    Several States, including Iowa and Massachusetts, have 
expanded new hire reporting to include payments to independent 
contractors. This change was made because many noncustodial 
parents who were formally classified as employees are now 
becoming self-employed, and many employers are outsourcing 
tasks that used to be done in-house. Massachusetts has also 
expanded new hire reporting to include employees who retire and 
begin to collect a pension, and those who are injured and 
collect worker's compensation. These are some issues that we 
also need to look at in the near future.
    In conclusion, I cannot stress strongly enough the value of 
new hire reporting to the task of establishing and collecting 
child support. I've been a child support professional for more 
than 21 years and I believe that the combination of new hire 
reporting and the issuance of wage withholding is one of the 
most significant improvements in the way we do business.
    Mr. Chairman, this does conclude my prepared statement, and 
I would be pleased to answer any questions. Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.012
    
    [GRAPHIC] [TIFF OMITTED]60898A.013
    
    [GRAPHIC] [TIFF OMITTED]60898A.014
    
    [GRAPHIC] [TIFF OMITTED]60898A.015
    
    [GRAPHIC] [TIFF OMITTED]60898A.016
    
    [GRAPHIC] [TIFF OMITTED]60898A.017
    
    Chairman Shaw. Thank you very much.
    Ms. Griffin.

  STATEMENT OF ALISHA GRIFFIN, ACTING ASSISTANT DIRECTOR, NEW 
       JERSEY DIVISION OF FAMILY DEVELOPMENT, TRENTON, NJ

    Ms. Griffin. Thank you. I want to begin by thanking 
Chairman Shaw and members of the committee for the opportunity 
to speak about New Jersey's Paternity Opportunity Program, 
called POP.
    For New Jersey, the POP program has been a tremendous 
success. We believe that POP results can be duplicated by other 
States. The success depends upon the investment of time, money, 
resources, building partnerships, and implementing new 
technologies. The increased investment does, and can, pay off.
    In New Jersey, POP approaches paternity establishment more 
broadly as a social issue, not just as a welfare issue. In our 
outreach to parents, health care workers, and the community, 
POP emphasizes the benefits for children when paternity is 
established, not just solely focusing on the financial 
enforcement of the obligations.
    We provide through POP multiple opportunities for assigning 
of a certificate of acknowledgment of paternity. Paternity can 
be acknowledged at the hospital, at local registrars, and at 
county child care agencies.
    We began our POP program in November of 1995. In calendar 
year 1996, there were 109,884 births in New Jersey. Of these 
births, 32,126 or 29.2 percent were out of wedlock births. In 
that same year, the first full year of POP's operation, 71 
percent of those out of wedlock births in New Jersey had 
paternity established through the POP program. Although 1997 
figures have not closed, our preliminary findings for the full 
second year are even better than the first year. The third 
quarter of 1997 closed at 73.8 percent, up almost 3 percentage 
points from the previous year.
    Since the inception of POP, more than 45,000 
acknowledgments have been obtained, and almost 4,000 children 
who came onto the IV-D caseload have come on with paternity 
already established. This makes POP one of the most successful 
voluntary acknowledgment programs in the country today.
    The necessary elements for a successful voluntary 
acknowledgment program with broad appeal to the general public 
include strong partnerships, support for those partnerships, 
the monitoring of them, and the technology to enhance them. The 
keys players in those partnerships are vital statistics, local 
registrars, hospitals, health and social service providers 
serving pregnant women and young families.
    Vital statistics maintains and updates all the birth 
records in the State. They supervise, direct, and are 
responsible for local registrars, who are critical links to a 
successful paternity program. They have established 
relationships with the hospitals and with birthing facilities. 
They're also an important source for outreach and marketing.
    Hospital staff are the front line of communication with all 
unmarried parents, and are best able to convey to parents the 
importance of paternity establishment. Health and social 
service providers have an opportunity to educate respective 
parents regarding the paternity issues prior to the admission 
to the hospital. And informed parents are more likely to sign a 
certificate of parentage at the time of birth. They can also 
educate parents who have children for whom paternity has not 
yet been established. Health and social service providers are a 
critical component in increasing our postbirth paternity 
establishment rates.
    One of the other key components to our POP program has been 
the provision of support and monitoring to all of those 
partners. We visit hospitals, marketing paternity establishment 
as a priority. We provide technical assistance to all the 
players and all the partners in the program, staff training and 
retraining, program brochures, videos, and other materials that 
help educate both providers of service and potential parents 
and parents in the program.
    We refer legal and eligibility service questions that have 
traditionally gone unanswered directly to our IV-D attorneys 
and our social case workers. We provide 24-hour, 7-day a week 
customer service, and verify and follow-up on certificates that 
are problematic.
    We provide program monitoring and immediate feedback to 
line staff and supervisors throughout the program, and we 
evaluate performance and create performance improvement plans.
    In technology, we have utilized our technology at the 
hospital, where demographic information is collected on all 
parents, and the data is electronically transferred into the 
POP system, which then interfaces with the automated child 
support system on a weekly basis to match certificates of 
parentage with cases where paternity has not been established. 
We're also using document imaging to capture certificates when 
they are received. The certificates can be accessed and printed 
on line by county workers and used in courts, which saves an 
inordinate amount of time.
    The benefits are to all players in the system; to the 
child, to the parent, to the State, and of course, to the 
taxpayer. It is a program that benefits all of us. Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.018
    
    [GRAPHIC] [TIFF OMITTED]60898A.019
    
    [GRAPHIC] [TIFF OMITTED]60898A.020
    
    Chairman Shaw. Thank you, Ms. Griffin.
    Ms. Jennings, you have a fan on this committee who's not 
here. His plane has been delayed, and he has made a special 
request that I hold you to the second panel. If that doesn't 
inconvenience you, I'd like to do that. Mac Collins has been 
delayed, but we've gotten word that he's on the way in, so we 
would appreciate your waiting.
    Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman. Ms. Bonar, I just want 
to congratulate you on the success that's been made in getting 
the New Hires Directory up and running. Because I think all of 
us believe that, if this is implemented successfully, we will 
increase child support collections. I noticed in your testimony 
you mention that all 50 States are providing data. I wondered, 
in addition to those 50 States that are in compliance, are all 
the territories and the District of Columbia providing the 
required information as well?
    Ms. Bonar. Actually, Puerto Rico and the District of 
Columbia are providing new hire data, however, we're not 
receiving new hire data from Guam or the Virgin Islands. There 
were some technical problems there. In addition, Guam just 
passed their legislation. For quarterly wage--we are not 
receiving quarterly wage data from Guam or the Virgin Islands 
either.
    Mr. Camp. Obviously, the law requires the employers to 
report this new hire data within 20 days. Is there any idea or 
any comments you can make about compliance by employers?
    Ms. Bonar. I think it's too early to tell about compliance. 
Also, not all States have passed the legislation so that every 
employer in the country needs to be reporting. We had 
anticipated that there would be about 60 million new hires a 
year, and we have 23 million now. So, we have a lot of 
reporting that needs to be done still.
    Mr. Camp. Any idea whether this is large firms, small 
firms, where there are greater difficulties maybe with 
compliance? Do you have any idea at this time?
    Ms. Bonar. No, at this time, we don't.
    Mr. Camp. I've heard from my State legislators about the 
sensitive personal information that is on these files. I 
realize social security number is optional, but in reality, I 
think that's the number that's being used. Can you comment just 
on the privacy safeguards and confidentiality concerns that 
will help keep the information from being made public?
    Ms. Bonar. Certainly. We take real seriously the 
confidentiality and the security of this data that we're 
entrusted with. The law's real explicit about who has access, 
who the authorized users are, for what purposes this database 
can be used, and we ensure that it's only used for the 
authorized purposes. I think also the fact that our database is 
housed at the Social Security Administration's computer center, 
it is that state-of-the-art in security standards, and we're 
subject to those standards. The data is transmitted to us over 
secured dedicated lines, so that there is no possibility for 
unauthorized access. With respect to social security numbers, 
the new hire data that comes into us--the social security 
numbers on new hire data--those are verified before they go on 
our National Directory.
    Mr. Camp. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Shaw. Mr. Levin.
    Mr. Levin. I'd like also to congratulate the Department. 
Timeliness has been a real problem in child support. Deadlines 
have been urgently enacted and often, I won't say flaunted, but 
have not been met. And so it's heartening the deadlines that 
have been set here have been met. So, congratulations.
    I gather from your testimony that all of you are fairly 
veteran public servants, and proud of it. And I'd like to 
congratulate, if I might, all of you on your work in this 
field. It often isn't heralded, but it's critical to reform of 
our welfare system. And each of you have indicated that the 
kind of, not only diligent, but imaginative and committed, 
efforts that you have undertaken, and I hope you have a real 
sense of pride.
    So, I just have one question that may, if I understand the 
data, may illustrate that we have a real challenge here.
    Now, let me just ask you about the Connecticut data. On 
page two, and I think it ties in to the testimony from Mr. 
Cohen, that the journey ahead may not be easy and it means that 
we have to really be totally dedicated if we're going to meet 
the deadlines. In calendar 1997, on page 2, Ms. Fray, through 
this system that you're rightfully excited about, you matched 
over 30,000 through the new hire process--24,000 had an 
existing child support order--and you were able to place more 
than 3,300 new income withholdings and transfer an additional 
5,000. So maybe this doesn't show how many of these 30,000, I 
guess--or 24,000--did not have an income withholding, right? 
That doesn't really appear here?
    Ms. Fray. No, that's correct.
    Mr. Levin. But would that--in other words, after you've 
finished with the successful 3,300 and then the transfer of 
5,000, there still was a considerable number where there wasn't 
a withholding--where there wasn't withholding information, 
right?
    Ms. Fray. Right, that is correct. Sometimes, with the new 
hire reporting, even though employers attempt to comply and 
give us the data on time, even now sometimes the noncustodial 
parent may either have left the job already or his wages may be 
so minimum that we can not in fact place the income 
withholding.
    In Connecticut, up until October 1, 1998, we are still 
under the State law that allows our employers 35 days to report 
new employees. Because Connecticut was one of the States that 
had new hire reporting prior to the passage of PRWORA, we were 
allowed to wait until then to make our changes. Effective 
October 1, our employers in Connecticut will have to report 
within 20 days. And I believe that will also help narrow the 
gap that you see in my figures here--that we will be catching 
up with the non-custodial parents even more quickly than we are 
now.
    Mr. Levin. Good. And the 20 day provision, do you think is 
feasible?
    Ms. Fray. Yes, I believe that there are many States----
    Mr. Levin. It's modern technology.
    Ms. Fray. There are many States that are already doing it, 
and yes, with modern technology, I do believe that it is 
feasible.
    Mr. Levin. And just one last question, you mention about 
the self-employed. How considerable a problem is that?
    Ms. Fray. When I talked to Iowa this week because they had 
passed their law quite awhile ago, and what they told me, was 
that they estimated a match rate similar to the regular new 
hire reporting. So I would have to say that it appears that it 
is now, and will in the future, increasingly be a larger 
problem.
    Mr. Levin. Ms. Griffin, you were shaking your head. You 
agree?
    Ms. Griffin. We anticipate some of the same problems.
    Mr. Levin. Mr. Cohen.
    Mr. Cohen. Yes.
    Mr. Levin. And we'll finish with you, Ms. Bonar. Should we 
do anything further in that regard?
    Ms. Bonar. The definition now is the IRS definition for 
employer and employee and that does not include independent 
contractors, so I've heard from States that that is an issue.
    Mr. Levin. And the independent contractors--there is a 
requirement to fill out a form. There is information that comes 
into the Federal Government, right?
    Ms. Bonar. There would be for the W-2 reporting.
    Mr. Levin. Or it's equivalent.
    Ms. Bonar. Right.
    Mr. Levin. Mr. Chairman, we may want to look at that as a 
further improvement on what this subcommittee has labored 
effectively to achieve. Thank you.
    Chairman Shaw. Mr. Collins, do you want to hold your 
questions for the next panel? We've held your witness.
    I'd like to thank this panel for some very fine testimony. 
It's truly quite rewarding to see some of the things that we 
have been cooperating on with the States and see them coming of 
age and actually working. And I think it shows the wisdom of 
the legislation. Thank you very much, all of you.
    And Ms. Jennings, you can just stay right there, while I 
introduce the next panel.
    We have Richard Casey Hoffman, the President of CSE, the 
Child Support Enforcement Company in Austin, Texas; Charles 
Bacarisse, who is the Harris County District Clerk from 
Houston, Texas, and from the great State of Florida, Judith 
Fink, who is the director of the Broward County Support 
Enforcement Division in that great city of Ft. Lauderdale, 
Florida.
    Welcome. As with the previous panel, we have your full 
statement which will be made a part of the record, and we would 
invite you to summarize as you see fit.
    Ms. Jennings, we will lead off with you, in that you are 
still with us from the previous panel.
    Mac, would you like to make any special remarks before we 
proceed?
    Mr. Collins. Yes, Mr. Chairman. Thank you. I appreciate you 
and Ms. Jennings working together to wait until I could arrive; 
my first flight was canceled.
    I just want to take the opportunity to welcome Ms. 
Jacqueline Jennings from Columbus, Georgia. She's manager of 
the Child Support Enforcement Office in Columbus with the 
Georgia Department of Human Resources. She has 21 years of 
experience in this office. In the Columbus area, she has 
jurisdiction over five counties. Fort Benning, Georgia is 
located amongst them. She's been a real leader in the area of 
child support recovery. In the Welfare Reform bill we had in 
the last Congress, Mr. Camp, Ms. Dunn and I worked very closely 
together trying to come up with some new provisions on 
enforcement. Ms. Jennings played a major role in advising me 
back in the District of some things that we needed to look at. 
In your opening remarks, Mr. Chairman, you mentioned another 
area that I think Ms. Jennings could be very helpful to us in. 
We look forward to her testimony and welcome Ms. Jacqueline 
Jennings.

  STATEMENT OF JACQUELINE JENNINGS, MANAGER, OFFICE OF CHILD 
 SUPPORT ENFORCEMENT, DEPARTMENT OF HUMAN RESOURCES, COLUMBUS, 
                               GA

    Ms. Jennings. Thank you, Representative Collins. To 
Representative Shaw and the other members of the great body, it 
is indeed a pleasure for me to be allowed this opportunity to 
talk about the plight of some of America's children who are 
being denied support from their fathers. I currently serve as 
the office manager of the Child Support Enforcement Office in 
Columbus, Georgia. We have the unique distinction of being near 
one of the Army's many training centers--Fort Benning--and the 
home of some 30,000 military veterans and retirees. We're near 
the Tuskegee VA Hospital and Martin Army Hospital; therefore, 
we handle a large number of child support cases where the non-
custodial parent is a veteran.
    The Personal Responsibility and Work Opportunity Act of 
1996 provided the Office of Child Support Enforcement 
additional laws and techniques to obtain support payments from 
more delinquent parents to ensure that their children receive 
the financial support and security that they're entitled to 
have. Yet, children of thousands of veterans are being denied 
support that has been established through court orders because 
we're unable to send the Veterans' Administration Income 
Withholding Orders. The policy regarding veterans' benefits 
needs to be reviewed to assure that no child fails to receive 
support from their parents, even if their parent is a veteran.
    I have two different cases handled by my office that I 
believe will illustrate the need for additional changes in this 
policy. These cases are only a fraction of the cases of parents 
who are veterans who are not living up to their obligations in 
our caseloads in Georgia and throughout the Nation.
    The first case involves the Office of Child Support 
Enforcement and the Office of Child Support Enforcement in 
Washington working together to obtain support for a parent. The 
custodial parent sought congressional assistance in this case, 
contacting the Washington courts and providing updated 
information regarding the non-custodial parent's income. Her 
efforts resulted in her being awarded $41.00 a month from 
Veterans' Administration. The non-custodial parent's obligation 
is $300.00 per month, resulting in a $259.00 deficit each 
month. Since the VA payments are the NCP's only income, the 
Washington courts acknowledged that they were unable to secure 
support payments from the non-custodial parent until he was 
employed. Washington Child Support Unit offered to refer the 
non-custodial parent for employment services, but he refused. 
To date, he is behind in his support payments well over 
$12,000.
    The second case involves a non-custodial parent who had 
several proceedings regarding his support payments. The non-
custodial parent continued to receive his VA benefits while in 
jail, but he failed or refused to pay his child support for his 
child. This non-custodial parent has placed his child at risk 
by not being willing to help provide for the child's basic 
needs. Although we were able to get payments on the arrears 
after the child turned age 18, the tragedy of this situation 
was that the veteran's son never benefitted from a parent who 
supported him. The support due on these cases totaled over 
$20,000 and that's just two cases in my office.
    If you multiply this number throughout the United States, 
these figures are staggering. All of these cases highlight the 
need for changes to be made to allow veterans' benefits to be 
shared with their children. Child support workers throughout 
the country are able to secure support payments from parents 
who receive disability income from Social Security. This does 
not include supplemental income but RSDI based on the non-
custodial parent's employment history. If the law allows for 
children of those parents to receive--who receive Social 
Security disability to pay support, then the children of 
veterans should have the same rights.
    The right to receive child support should be afforded to 
all children. The need for these changes are increasing as many 
veterans are obtaining benefits at an early age and are 
remarrying and becoming parents of additional children. We are 
aware that each claim must be viewed on an individual basis--
keeping in mind the needs and conditions of the veteran who 
will be affected. The non-custodial veteran can request a 
review and adjustment of their court orders to reflect a change 
of circumstances, but yet be still allowed to pay support based 
on current income.
    The VA has worked with numerous custodial parents to allow 
some apportionment to be sent to families, but in most cases, 
it is far less than the amount that is court-ordered and the 
children are still suffering. Many of these children have 
working mothers who need this money to improve their lives. Our 
staff in Georgia is committed to providing the highest level of 
service to all clients. We're utilizing all the techniques 
passed in the Personal Responsibility Work Act of 1996 to 
provide assistance for our children. But we really need and 
feel that this is important that the veterans' children are 
looked at. Allowing access to VA benefits will provide millions 
of dollars of support to the children of the country who may 
otherwise be unable to receive support through wages. While we 
are proud of our veterans and their many sacrifices for our 
country, we must also focus on their children who are our 
future.
    A change in the Federal statute to allow VA benefits to be 
paid for support will help ensure that veterans' children have 
a better chance of life. We must all remember that the children 
are who we are working for in child support. Thank you for 
allowing me this opportunity to bring this important issue to 
your attention.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.021
    
    [GRAPHIC] [TIFF OMITTED]60898A.022
    
    [GRAPHIC] [TIFF OMITTED]60898A.023
    
    Chairman Shaw. Thank you, Ms. Jennings.
    Mr. Hoffman.

 STATEMENT OF RICHARD ``CASEY'' HOFFMAN, PRESIDENT, CSE, CHILD 
            SUPPORT ENFORCEMENT COMPANY, AUSTIN, TX

    Mr. Hoffman. Thank you, Mr. Chairman and members of the 
committee. My name is Casey Hoffman. I'm the president of the 
oldest and largest attorney-led enforcement firm in the country 
that's headquartered in Austin, Texas. We have 85 people at 
CSE. Seven of whom are attorneys. We have focused strictly on 
enforcing court-ordered child support for private clients. It 
is important to note that we do not receive Federal funds of 
any kind and are not part of the Title IV-D program.
    My training and experience give me a unique perspective in 
working with child support professionals to solve this crisis. 
I have been an Assistant District Attorney. I practiced family 
law for 18 years. I've co-authored a book and numerous articles 
on child support enforcement and I've served as a State Bar 
president. But most importantly for five years, I ran the 
largest Title IV-D program in the country as a special 
Assistant Attorney General in Austin, Texas.
    Taking testimony from this panel is a historic occasion in 
your dedicated efforts to solve the child support problem. This 
particular panel is comprised of representatives who are not 
part of the Title IV-D effort. As such, they do not get any 
Federal funds, but each day help families across the country 
collect child support and distribute the child support check 
promptly. It is a most appropriate time to focus on what non-
Title IV-D agencies like these can do for the families who do 
not and cannot get help from the federally-funded Title IV-D 
program. Given the millions of families that go without child 
support, there can be no competitive reason for supporting a 
Title IV-D solution over a non-Title IV-D solution.
    From the taxpayer perspective and a Title IV-D perspective, 
each case where we provide services is one less case for the 
overburdened Title IV-D worker. I believe it is clear to most--
every experienced professional that we can no longer design a 
Title IV-D program that assumes each and every case will be 
successfully worked by the Title IV-D agencies in this country. 
We must, instead be inclusive and do what is needed to attract 
other armies onto the battlefield to work--the caseload--that 
overwhelms our IV-D agencies. Just as importantly, we must work 
the cases for the millions of children who are not even in the 
Title IV-D program. We must remember that there's a huge 
caseload of families that are not part of the Title IV-D agency 
and do not receive child support.
    The latest Federal statistics for 1996 demonstrate the 
above presumptions clearly and unequivocally. The Title IV-D 
program while improving dramatically in collecting an 
impressive $12 billion was able to collect on 52 percent of the 
current support owed for that year and on 8 percent of the 
total arrearages. What this means in total dollars not 
collected--not collected for 1996--in just the Title IV-D 
caseloads, is $8 billion in current support went uncollected, 
while $36 billion in arrearages went uncollected. Said another 
way, the Title IV-D program fell behind another $4 billion in 
collections. Therefore, our message today is focused on 
proposal that supports putting more armies on the battlefield. 
That proposed is to provide non-Title IV-D agencies with the 
same tools that you have given to the IV-D program and the 
information you have given to the IV-D program so that they can 
help more families.
    Title IV-D families cannot claim an exclusive right to 
providing child support services, nor should they be given an 
exclusive right to the tools and information you legislated for 
all children. If there's one thing that the Congress can claim 
all the credit for and deserves to be praised for, it is giving 
the Title IV-D program some of the best tools and information 
to serve their clients.
    For example, where would we be without wage withholding--a 
tool that has been widely used by the non-Title IV-D programs. 
The issue becomes how can we give the non-Title IV-D programs 
who are using attorneys the very tools that the Title IV-D 
program has. A little over 90 percent of our clients who have 
come to us for help are owed over four years worth of child 
support and have already been to the IV-D agency; they had not 
received child support collected; and are now benefiting from 
our services. Families also go to Judy Fink's agency in Broward 
County and get help. She's a non-Title IV-D agency. They get 
services from Charles Bacarisse in Houston, Texas and he's a 
non-Title IV-D agency.
    I feel very strongly about this proposal and describe it in 
detail in my written testimony. I've set forth the tools that 
we need to be giving to the non-Title IV-D programs that will 
help millions of children in this country and help us win the 
child support war. Thank you very much.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.024
    
    [GRAPHIC] [TIFF OMITTED]60898A.025
    
    [GRAPHIC] [TIFF OMITTED]60898A.032
    
    [GRAPHIC] [TIFF OMITTED]60898A.031
    
    [GRAPHIC] [TIFF OMITTED]60898A.030
    
    [GRAPHIC] [TIFF OMITTED]60898A.029
    
    [GRAPHIC] [TIFF OMITTED]60898A.028
    
    [GRAPHIC] [TIFF OMITTED]60898A.027
    
    [GRAPHIC] [TIFF OMITTED]60898A.026
    
    [GRAPHIC] [TIFF OMITTED]60898A.033
    
    [GRAPHIC] [TIFF OMITTED]60898A.034
    
    [GRAPHIC] [TIFF OMITTED]60898A.035
    
    [GRAPHIC] [TIFF OMITTED]60898A.036
    
    [GRAPHIC] [TIFF OMITTED]60898A.037
    
    Chairman Shaw. Thank you, Mr. Hoffman.
    Mr. Bacarisse.

 STATEMENT OF CHARLES BACARISSE, HARRIS COUNTY DISTRICT CLERK, 
                          HOUSTON, TX

    Mr. Bacarisse. Mr. Chairman and distinguished members of 
the committee, I come before you today to ask your support for 
legislation that would give non-Title IV-D enforcement agencies 
additional tools to be even more effective players in the field 
of child support enforcement. My name is Charles Bacarisse and 
as the District Clerk of Harris County, Texas, I oversee a 
child support registry that moved more than $220 million in 
payments last year. There's simply no doubt in my mind that 
child support enforcement has grown at such a rate that outside 
assistance is desperately needed.
    From my office in Houston, my staff processes over 5,000 
transactions totalling more than $1 million a day. In fact, if 
Harris County were a State, it would rank 26th nationally in 
terms of the volume of child support payments processed. You 
may not be aware of the more than 19 million cases currently in 
the nationwide IV-D caseload, nearly 40 percent lack support 
orders. In those cases having orders, collections could be made 
in only one of five because of the difficulty inherent in that 
enforcement. At the same time, the State IV-D agencies struggle 
to increase establishments in collections, their caseloads 
continue to grow by the hundreds of thousands and the backlogs 
in establishments and enforcement actions continue to mount. 
While the problem is monstrous by any standard, the solution in 
my judgment is not. A successful full-scale attack on this 
worrisome problem requires the enlistment of all available 
resources including locally funded, non-Title IV-D government 
enforcement entities and members of the private bar and 
responsible private firms specializing in support collection.
    This attack also makes sense from a taxpayer's standpoint. 
Title IV-D support enforcement services cost the taxpayer more 
than $3 billion annually. By contrast, locally funded support 
enforcement agencies and private attorneys can offer services 
at zero cost to the Federal Government. In this regard, Harris 
County custodial parents in need of support enforcement 
assistance are more fortunate than those in some other areas, 
because Harris County operates its own child support 
enforcement agency--the Harris County Domestic Relations 
Office.
    The Harris County DRO is funded by fees paid by those who 
use its support and visitation enforcement services. The user 
fees are based on income and ability to pay. Unfortunately, 
Texas' domestic relations offices in similar non-IV-D public 
child support enforcement agencies in other States are 
presently unable to use some of the enforcement tools available 
to the IV-D agencies. The result is the custodial parents may 
be forced to go to the IV-D agency for certain types of service 
adding to the number of cases to be handled by the IV-D agency.
    As one who deals with this matter on a daily basis, my 
suggestion for involving capable non-Title IV-D enforcement 
entities must come with Federal legislation to allow the 
following four enforcement tools: the equal use of income 
withholding for unemployment benefits; the equal use of Federal 
and State tax refunds; the extension of data matches with non-
Title IV-D entities; and the ability to report child support 
delinquencies to credit bureaus. All of the measures would, of 
course, come with the appropriate safeguards on access to and 
the use of this confidential and sensitive information. The 
legislation should require that any non-IV-D entity or private 
attorney seeking to use these specified tools and information 
register with the Secretary of Health and Human Services. The 
use of the specified tools and resources would be solely for 
child support enforcement purposes.
    My view is that the more resources that can be applied to 
improving the collection of support, the better for the 
children owed that support. I believe Federal legislation and 
policy should encourage participation in support enforcement by 
responsible public and private agencies and attorneys. This 
subcommittee can begin that process today by considering the 
recommendations I've just presented, as well as those of my co-
panelists joining me here today. Mr. Chairman and members of 
the committee, I hope I've clearly defined the gravity of this 
situation and left you with at least part of the solution. 
Thank you for allowing me to testify before your committee.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.038
    
    [GRAPHIC] [TIFF OMITTED]60898A.039
    
    [GRAPHIC] [TIFF OMITTED]60898A.040
    
    [GRAPHIC] [TIFF OMITTED]60898A.041
    
    [GRAPHIC] [TIFF OMITTED]60898A.042
    
    Chairman Shaw. Thank you. Not to be outdone by Mac Collins, 
it's now my pleasure to ask Judy Fink to testify before the 
committee--of Ft. Lauderdale, Florida.

  STATEMENT OF JUDITH FINK, DIRECTOR, BROWARD COUNTY SUPPORT 
            ENFORCEMENT DIVISION, FT. LAUDERDALE, FL

    Ms. Fink. Mr. Chairman and distinguished members of the 
subcommittee. Good afternoon and thank you for the invitation 
to testify on the issue of child support enforcement in the 
non-IV-D arena. My name is Judith Fink and I'm the director of 
the Broward County Support Enforcement Division, an agency of 
county government in Broward County, Florida.
    We are funded completely through the county's property tax 
dollars. Through the local funding of a separate child support 
program in Broward County, we are able to assist our IV-D 
counterparts, thus reducing the need for additional Federal 
dollars. Due to the diligence of Congress, and in particular 
the work of this subcommittee, very effective child support 
enforcement tools have been created. A very notable example is 
wage withholding--also known as income deduction. This process 
is one of the primary methods by which child support is now 
collected. What is very significant is that wage withholding 
was first enacted by Congress as an enforcement tool available 
only to IV-D agencies. States were then given the option of 
whether to extend use of this tool to non-IV-D cases. 
Eventually Congress required immediate wage withholding for 
child support in all cases.
    Congress should take this approach now and extend the use 
of other child support enforcement tools initially given only 
IV-D agencies to non-IV-D enforcement organizations. Our newest 
enforcement tool is the ability to revoke drivers' licenses. 
Through this program, we have been able to convince people to 
meet their child support obligations that previously ignored 
all other enforcement attempts. In some States, non-IV-D 
enforcement agencies are not able to utilize this enforcement 
tool. Congress should enact legislation making it clear that 
license revocation as an enforcement--as an enforcement tool 
should also be available in non-IV-D cases. These two examples 
illustrate the importance of Congressional action to create a 
level playing field by which the non-IV-D child support 
enforcement agencies are able to access important tools.
    I'm here today to ask for your help in leveling the playing 
field--that is child support enforcement. Our clients give up 
opportunities for access to effective enforcement tools because 
they would rather work with the local agencies that reports to 
the county government and is more responsive to community 
needs. This choice should not be necessary. In order to afford 
the non-IV-D client the same enforcement opportunities as those 
made available to IV-D residential parents, we are requesting 
that non-IV-D agencies be given access to the following 
enforcement tools.
    Income withholding from unemployment insurance benefits: 
Non-IV-D clients already benefit from the use of income 
withholding through use of income deduction orders to the 
employers. A logical extension of this very effective tool 
would be grant non-IV-D agencies the right to issue income 
deduction orders against unemployment insurance benefits. 
Without this right, child support payments come to a grinding 
halt when non-residential parents lose a job. Conceivably six 
months to a year can go by without any child support payments 
being sent to the residential parent.
    The New Hire Directory: As stated earlier, the singular 
most effective enforcement tool is the income deduction order. 
New hire directory is a service that our clients frequently 
request and believe that we are obligated to provide. If this 
service were to become an automatic function of the non-IV-D 
agency, we could help some of our neediest clients to collect 
their child support.
    The Federal Case Registry: Under the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996, 
all non-IV-D cases established or modified on or after October 
1, 1998 must be maintained on a State and Federal case 
registry. Even though non-IV-D case information will be 
maintained, the non-IV-D client will receive no tangible 
benefit. Information matched through the registry will be 
extremely valuable and helpful in our ongoing enforcement 
efforts.
    Passport Revocation: The Welfare Reform Act of 1996 allows 
for passport sanctions when child support debt of more than 
$5,000 is owed. We believe that much like the driver's license 
revocation, this would be an extraordinarily valuable tool. We 
would like to ensure that child support obligations are placed 
ahead of international travel on a delinquent parent's list of 
priorities.
    In addition to access to the previously-mentioned 
enforcement tools already made available to and used by the IV-
D agencies, we would like to propose an amendment to current 
law.
    Under existing law, when a residential parent files for 
bankruptcy there's an automatic stay for child support 
enforcement. While the child support enforcement obligations 
cannot be discharged as a result of bankruptcy until the 
bankruptcy issue is resolved, our hands were tied with regard 
to enforcement. We propose that child support enforcement be 
exempt from the automatic stay.
    As part of the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996, each State is required to establish 
a central disbursement unit through which all income deduction 
order payments shall be processed. While this may be more 
efficient for the employers, we have some serious concerns 
regarding customer service to our clients. As a local 
depository, we also make arrangements for the parent to come to 
our office to pick up the check when they are in critical 
financial need. Once the central disbursement unit is 
established, this vital customer service will be eliminated.
    Together we have made great strides in improving child 
support enforcement services. Collections are on the rise, 
however, we can do more. We see ourselves as the unofficial 
partners to the IV-D agencies in the war on child support. The 
truth is that the IV-D agencies cannot do it all. We're not 
asking for funding. We're not even asking for recognition for 
the wonderful work that we do each day to help improve the 
lives of the children whose parents come to us for help. All 
that we ask is to help us by leveling the playing field that 
our clients may be the recipient of many of the remarkable 
enforcement methods that you've made available to those parents 
who choose to apply for these services.
    Mr. Chairman, thank you for the invitation and the 
opportunity to testify before this distinguished committee. The 
lives of the single parents of America are improved through the 
diligent efforts and caring of this committee. Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.043
    
    [GRAPHIC] [TIFF OMITTED]60898A.044
    
    [GRAPHIC] [TIFF OMITTED]60898A.045
    
    [GRAPHIC] [TIFF OMITTED]60898A.046
    
    [GRAPHIC] [TIFF OMITTED]60898A.047
    
    [GRAPHIC] [TIFF OMITTED]60898A.048
    
    Chairman Shaw. Thank you, Ms. Fink. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. Mr. Chairman, I want 
to refer to Ms. Jennings and a couple of questions pertaining 
to veterans' benefits. Ms. Jennings, you mentioned two 
particular cases. But would you please walk the committee 
through the process when a custodial parent comes to you 
seeking child support from a non-custodial parent that is 
currently receiving veterans' benefits?
    Ms. Jennings. A lot of times, the custodial parent may not 
know that the parent is receiving benefits. What we do is we 
try to go through all of the possible things that the non-
custodial parent may be receiving. One of the first questions 
we ask in Columbus is, is the person a veteran? Did they serve 
in the military in any way? For how long? So that we can start 
the process. Usually, we'll send the custodial parent to the VA 
ourselves to let her apply and find--and get the information 
from them. A lot of times they will bring us back the paperwork 
and we'll help the client fill out the paperwork, answering the 
questions and providing the information. Sometimes she may or 
may not know it all--the information. So we're kind of the go-
between between the client and the VA administration trying to 
get the information so the client can find out. They'll write 
back to us and to the client and notify us if the veteran is 
receiving benefits or is the parent able to get a apportionment 
out of the benefits at that time.
    Mr. Collins. Is it a lengthy process?
    Ms. Jennings. It is a lengthy process. They--a lot of 
times, VA, they tended to be a little slow when they respond 
back to you. So a lot of times we'll have to go back in and ask 
them over and over again. It's a lot of paperwork. A lot of our 
clients don't understand what they're asking about--about the 
service member injuries. They ask a lot of times questions that 
the mother may not know. So it is a lengthy process and it does 
take awhile for VA to answer back to us.
    Mr. Collins. Do you have an idea of your caseload? I 
believe today you have about 13,000 cases. What percentage of 
your caseload is actually veterans?
    Ms. Jennings. Probably about 45 percent in some ways.
    Mr. Collins. Do you know of any other Federal paycheck or 
benefit check that cannot be processed for child support other 
than the veteran?
    Ms. Jennings. No. That's the only one that we--and because 
we at Ft. Benning deal with attachments to most military or 
Federal pay--from civil service to retired pay--and that 
veteran's check is the only one that we know about that we have 
not been able to actually access.
    Mr. Collins. You mentioned an apportionment benefit. Would 
you explain in more detail what this actual apportionment 
benefit is. Is it limited or not limited? Give us some kind of 
idea of just exactly what you mean.
    Ms. Jennings. Well, first, it's going to be based upon the 
veteran's disability and how much that veteran is allowed to 
receive. Then the apportionment--in some cases, we've had where 
the VA will tell us that the client, the mother and children 
are not able to receive any amount of apportionment because the 
veteran needs that money to support himself. The thing that 
strikes us about these cases, that these are veterans who are 
walking around, who are able to do odd jobs and have a second 
income that we may or may not can find--but yet they're saying 
that the money is needed totally to take care of this veteran. 
Usually the apportionment is a smaller amount of money and is 
far less than what is already obligated or already ordered by 
the courts. So there are some cases where the mother will get 
an apportionment, but it'll be a smaller amount of money--like 
the $401 that this lady is currently receiving now.
    Mr. Collins. Do you have any problem with VA obtaining the 
actual information as to how much a veteran is drawing in 
benefits?
    Ms. Jennings. That's a challenge. Usually that's why we 
usually send the client there because it is very difficult to 
get any information from the Veterans' Administration directly 
ourselves. So we usually send the client there to get the 
information.
    Mr. Collins. Okay. In the welfare reform measures that we 
included in the child support provision--including the Welfare 
Reform bill--it seems to have been a lot of things that have 
been very helpful to you in order to help you recover payments 
more easily. Can you give some ideas of----
    Ms. Jennings. Well, the license suspension is very, very 
helpful. That's one of the things that we utilize quite a bit 
in my area. I'm on the border State and so I border Alabama. I 
have a large, tremendously large, interstate caseload. The 
passage of the URISA Act so that we can send court orders 
across the county/State line makes it much more simpler and of 
course they can do it to the employers there in Georgia. So 
those are just two things. We're just now starting to get 
into--going into bank accounts and some other things that the 
law will allow for. But we think that this will help increase 
our caseload all the way around.
    Mr. Collins. Very good. Mr. Chairman, I have a letter from 
a constituent--I won't read her name--that I would like to 
share with the committee and have it entered into the record, 
please sir.
    It says ``Dear Mr. Collins, I have written in an attempt to 
gain child support for my son since 1987. I've requested aid, 
written letters, sent in outlined budgets and constantly asked 
for medical, educational and general support benefits to no 
avail from VA. I've been denied access to my spouse's records 
as to what percentage of disability and total amount of his 
entitlement are from the VA. My sons are now 16 and 14 and have 
been denied the opportunity and right to benefit from the 
allotted monetary gain set by VA standards no matter what the 
amount. I have not objected to inquiry into my type and mode of 
employment nor salary and lifestyle. Are we to live below the 
poverty level; be denied clothing, shelter and whatever joys in 
my life that my salary cannot provide? I work two jobs and 
attend graduate classes in order to provide. My children have 
needs as well as any other. Does my salary and the fact that I 
do work prevent their father from participating in their 
welfare? I pray that the concerns of these children that are 
being abandoned by the government--the VA--be voiced. That the 
VA rethink the position that allows these deadbeat fathers to 
flagrantly flourish under the protection now set in the VA 
guidelines. I await you reply with interest. Signed.'' I'd like 
to enter that into the record, please.
    Chairman Shaw. I thank you for bringing this question to 
our attention. Mr. Hoffman, how do you answer the question as 
to the rights of privacy that the IV-D for the agencies by law 
can overcome? I mean, there's a certain amount of information 
that they can receive that you cannot. I assume that you're 
advocating that you should be able to receive this information. 
How would you answer those people that are concerned about 
that?
    Mr. Hoffman. Well first off, I think that's one of the 
paramount issues. The way we propose to resolve it in the 
written testimony is very clear. The first point is that only a 
private attorney can make the request to the agency. In an 
affidavit, that private attorney is going to have to swear that 
he is seeking that information for one purpose only and on just 
that one particular case, and it has to be for the purpose of 
child support enforcement. When the IV-D agency gets that 
request--just as they do now with a FPLS--request--we would get 
all of the information from FPLS. The information that we would 
be asking for under the State case registry and under FPLS 
would be secure as that attorney would be very concerned that 
he or she would lose their license to practice law if the 
provision was violated. We would have them sign it under oath 
and it would indicate that the penalty would be disbarment if 
used for any purpose other than child support enforcement.
    The second provision we put in the written testimony is 
that there would be a registration process with the Federal 
agency whereby you would be entitled to get this information 
only if you were properly registered. If you violated the rule, 
then you would of course be taken off the list and would not 
get this information from the IV-D agency. We think that way, 
privacy will be protected in a way that's no different from 
every child support worker that handles that information right 
now. We have no guarantee that every Title IV-D worker is going 
to handle that information responsibly. We believe they do--we 
believe they do a good job, but they're also subject to losing 
their employment I would assume if they violated the security 
promised the title IV-D agency.
    We've put very specific provisions in our request for this 
committee to consider that kind of legislation. We think, quite 
frankly, it's necessary. We would not extend this to any agency 
beyond a private attorney. Right now, I would like to see how 
that works. I think that if a client is allowed to go in and 
ask for this information--get it from the Federal IV-D agency, 
why would you not let an attorney who represents that client 
get the very same information. If the client is going to get it 
then the person who has a lawyer ought to get it.
    Chairman Shaw. Ms. Fink, is that information available to 
you?
    Ms. Fink. No, not currently. We do have access to the 
driver's license bureau record--on-line inquiry access. So 
that's one area where we've already opened the door a little so 
to speak. So we see this as just an extension beyond some of 
the very confidential information that we're already receiving. 
We found that the driver's license has been very beneficial to 
us for some child support. We actually have an agreement with 
the driver's license bureau that if we--if anyone on my staff 
uses that information for anything other than child support 
enforcement, then that access will be denied to our entire 
agency.
    Chairman Shaw. You brought something to my attention--even 
though I practiced law for many, many years. I wasn't aware 
that child support was subject to an automatic hold during 
bankruptcy proceeding. That I feel is outrageous.
    Ms. Fink. We think so----
    Chairman Shaw. We need desperately to address a bankruptcy 
bill that's beating around the House here. I don't know whether 
it's going to get to the floor this week or not but there's 
some things in there I think that we may want to address. But 
this is something that we ought to take a look at and see if we 
can straighten it out.
    I want to thank you all very much for your very fine 
testimony. Thanks for being with us, we appreciate it.
    The next panel is made up of two people--Jessica Pearson, 
Ph.D. and director of the Center for Policy Research, Denver, 
Colorado; and Kathleen Krenek, the policy development 
coordinator, Wisconsin Coalition Against Domestic Violence, 
Madison, Wisconsin.
    As with the other panels, we have your full testimony, 
which will be made a part of the record.
    I have to apologize to this panel. I've got a meeting with 
the leadership that I have to attend at 4:30. Mr. Collins will 
chair the hearing and I will try to get back in time for the 
questioning. We appreciate this panel being here.
    Mr. Collins [presiding]. Well, we'll go ahead. Ms. Pearson?
    Ms. Pearson. Yes.
    Mr. Collins. Welcome and we'll receive your testimony. It 
will be entered into the record and included in its entirety.

   STATEMENT OF JESSICA PEARSON, DIRECTOR, CENTER FOR POLICY 
                      RESEARCH, DENVER, CO

    Ms. Pearson. Thank you. I'm Jessica Pearson. I'm the 
Director of the Center for Policy Research which is an 
independent, nonprofit organization in Denver, Colorado engaged 
in research on issues that pertain to children and families.
    During the past 18 months, my colleagues and I have 
conducted a study of applicants for public assistance in four 
social service agencies in Colorado in both urban and rural 
settings. As part of our study--intake workers in four public 
assistance and child support agencies in Colorado--asked 1,082 
female applicants for public assistance explicit questions 
about whether they had ever experienced domestic abuse. Those 
who disclosed domestic abuse were asked more detailed questions 
about the perpetrator, the frequency and the severity of the 
violence. They were also asked about whether they were 
interested in applying for the so-called Good Cause Exemption 
which accords victims the right to apply for an exemption to 
the child support requirement for reasons of domestic abuse. We 
analyzed the responses to these questions. We also reviewed 
files maintained by these social service agencies to gauge the 
number and status of any good cause applications that they had 
filed. This is what we found.
    Finding 1: Many applicants for public assistance have 
experienced domestic violence. Like many other studies of women 
on welfare, our screening efforts revealed that domestic 
violence is extremely common. Across the four office sites in 
our study, 40 percent of applicants disclosed current or past 
abuse. This is presented in the first pie chart on your 
handout. Most of the abuse reported by the women involved 
former partners, although a quarter are currently involved in 
an abusive relationship. Three-quarters of those reporting 
abuse said the abuser was the father of one or more of their 
children making cooperation with the child support agency and 
the pursuit of child support at least a potential danger. 
Eighty-one percent of the women reported being hit or beat up; 
half characterized the abuse as frequent; about one-third 
reported that the abuse had occurred within the past two years.
    Finding 2: Very few victims are interested in applying for 
good cause. In our study, child support technicians explained 
that all victims of domestic violence have the option of 
applying for a good cause exemption. They asked each 
interviewed victim whether she was interested in making such an 
application. Across the four offices we studied, only 6.7 
percent of the women reporting violence said that they would be 
interested in applying for the exemption; while 93.3 percent 
declined. Looked at somewhat differently, only 2.7 percent of 
the 1,082 applicants for public assistance studied in this 
project expressed an interest in applying for good cause. Those 
figures are shown in the second and third pie charts on your 
handout.
    Nearly all of those who declined to apply for good cause--
93 percent--said that they wanted child support. The desire to 
obtain child support was the main reason most victims gave for 
not pursuing the good cause option. Other common reasons given 
by many victims of domestic violence for not applying were: the 
absent parent knows where I live; the abuse happened long ago; 
there's no current danger; and I already have a child support 
order for him.
    Finding 3: Some women do fear that they will experience 
harm if child support is pursued. Of the 1,082 women we 
interviewed, 2.7 percent--or 29 victims of domestic violence--
said they were interested in applying for good cause. These 
women believe that the abusive parent wanted to take or harm 
the children and/or harm them. They worried that the pursuit of 
child support would stimulate the abuser to visit; learn her 
whereabouts; and/or take retaliatory actions. To avoid an 
abusive partner, 72 percent of these victims said they had 
changed residences; 55 percent had moved out-of-state; and 34 
percent had stayed at a shelter for battered women.
    Finding 4: Victims who applied for good cause may have 
trouble producing official records needed to document a threat 
of harm. One-third of those who applied for good cause were 
successful; two-thirds had their applications denied--typically 
because they provided no documentary evidence or because the 
evidence provided was deemed to be insufficient. Successful 
applicants provided at least two types of documents such as 
police reports and restraining orders. However, there was a 
fair amount of subjectivity in what an agency considers to be 
accurate documentation.
    What does this all mean? Our research shows that domestic 
violence is a common problem. At the same time, the vast 
majority of these women do not request good cause from child 
support requirements. Like their non-abused counterparts, these 
women want child support--they ask for no accommodation. 
Congress should continue to encourage child support agencies to 
pursue child support for these women. A small proportion feel 
otherwise. In these instances, Congress should encourage States 
to explore ways to provide child support interventions that 
offer victims more confidentiality. Washington State's Address 
Confidentiality Program is one example of a State-funded 
program that offers the use of substitute addresses to victims.
    Some women will only be safe if child support interventions 
are suspended all together. In these instances, Congress should 
encourage States to review their procedures in public 
assistance and child support agencies to ensure that those who 
need protection are being identified or offered the opportunity 
to apply for exemption in an understandable manner and are 
accorded reasonable and sensitive treatment. The small number 
of victims who believe they face a serious threat of harm and 
want good cause should not be burdened by requirements to 
produce an array of official documents. Their sworn statements 
and those of their family and friends should also be taken into 
account.
    Finally, before considering changes to current 
requirements, Congress should await the results of research 
currently underway in the States of Massachusetts, Minnesota, 
New York and Missouri on the topic of domestic violence, 
cooperation and child support policies. Thank you for your 
attention.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.049
    
    [GRAPHIC] [TIFF OMITTED]60898A.050
    
    [GRAPHIC] [TIFF OMITTED]60898A.051
    
    [GRAPHIC] [TIFF OMITTED]60898A.052
    
    [GRAPHIC] [TIFF OMITTED]60898A.053
    
    [GRAPHIC] [TIFF OMITTED]60898A.054
    
    [GRAPHIC] [TIFF OMITTED]60898A.055
    
    [GRAPHIC] [TIFF OMITTED]60898A.056
    
    [GRAPHIC] [TIFF OMITTED]60898A.057
    
    [GRAPHIC] [TIFF OMITTED]60898A.058
    
    [GRAPHIC] [TIFF OMITTED]60898A.059
    
    [GRAPHIC] [TIFF OMITTED]60898A.060
    
    Mr. Collins. Thank you. Ms.----
    Ms. Krenek. Krenek.
    Mr. Collins. Thank you.

 STATEMENT OF KATHLEEN KRENEK, POLICY DEVELOPMENT COORDINATOR, 
   WISCONSIN COALITION AGAINST DOMESTIC VIOLENCE, MADISON, WI

    Ms. Krenek. Good afternoon, Mr. Chairman and members of the 
House Ways and Means Committee. Thank you for providing this 
opportunity to testify before the committee on behalf of the 
National Resource Center on Domestic Violence.
    The NRC is one of four centers funded by the Department of 
Health and Human Services to provide comprehensive information 
and technical assistance to those involved in domestic 
violence, intervention and prevention efforts. My name is 
Kathleen Krenek and I'm the incoming director of the NRC. For 
the past nine years, I've been the Policy Development 
Coordinator for the Wisconsin Coalition Against Domestic 
Violence.
    I think we share a common goal for low-income battered 
women and their families. We want them to be both self-
sufficient and safe. Many battered women need some combination 
of temporary financial assistance, access to job training, and 
educational activities, domestic abuse services and support, 
and child support. We commend the committee for including the 
panel on domestic violence within the TANF child support 
oversight hearing.
    In the area of child support, it is important to break out 
of the enforced child support--don't enforce child support 
paradigm--and expand it with the concept of safely enforcing 
child support. Adding this third strategy starts with a careful 
assessment of each family's risks and results in the 
individualized enforcement plan. The circumstances faced by 
battered women and their families are complex and diverse. A 
significant majority of battered women want and need child 
support orders enforced as Jessica Pearson has just noted. Some 
women, however, will be endangered or their children will be 
endangered by child support efforts. The clearest example is 
the woman whose abusive partner threatens to hurt her and her 
children if she cooperates with child support, including 
paternity establishment. These families may require alternative 
strategies that address safety risk and the suspension of child 
support enforcement altogether, if needed.
    Determining what child support enforcement strategies 
families need requires close collaboration between advocates, 
TANF and child support enforcement agencies and the families 
themselves. A number of promising approaches already exist that 
balance safety and self-sufficiency interests. As Congress 
intended these specialized responses are being created and 
implemented at a State level. Some examples include: child 
support agencies informing custodial parents every time an 
enforcement step is taken--such as service of papers, seizures 
of bank accounts or other assets, withholdings, suspension or 
revoking licenses, or attachment of wages--so that the 
custodial parents are able to take precautionary steps to deal 
with the potential backlash. Only requiring battered custodial 
parents to attend court orders when absolutely necessary and in 
those cases providing them protection.
    Establishing address confidentiality programs as you've 
heard like Washington State protects the location of a battered 
woman's residence while giving her some sort of address that 
she can receive legal documents. As you may know, Wisconsin 
received a Federal waiver to allow most custodial parents 
receiving cash assistance, to keep all child support that is 
collected. This new system allows many victims receiving their 
child support to maintain a level of independence once only 
hoped for.
    Importantly, the PRWOR Act also has strong language 
addressing the restriction of disclosure and use of the 
information--in the Federal Parent Locator Service and other 
databases. However, there are implementation issues to resolve, 
including the design of computer information systems. This 
again will benefit from a collaborative process on both the 
Federal and State levels. Regarding TANF and its impact on 
domestic violence victims, here again not all battered women 
have the same needs. Only some battered women--and we don't yet 
know how many--will need exemptions from time limits, work 
requirements or other program provisions. The available 
research shows us that not all abused women coming into contact 
with TANF and child support agencies will have problems with 
their ability to participate in job training, work or education 
programs and meet other program requirements.
    However, some of abused women will have lingering safety 
concerns or trauma that will interfere with job training or 
employment. There are promising practices in this regard, as 
well. By adopting a family violence option with similar 
provisions many States have recognized that some battered women 
need temporary exemption from work, child support cooperation 
or other requirements. Many States have developed an instituted 
training program designed to increase TANF workers' sensitivity 
and responsive to domestic abuse issues. In some communities, 
partnerships that combine the best local domestic violence 
advocate expertise where agency researchers have the potential 
to provide the meaningful, practical help battered women need.
    Building a broader culture change initiative and the State 
flexibility provided by Congress, some TANF and child support 
enforcement offices have explored ways to coordinate their 
efforts and create an environment in which battered women can 
safely get the information and resources they need to comply 
with program requirements and work towards a greater economic 
independence.
    We thank you again for placing domestic violence on today's 
hearing agenda. It's somewhat of a historical feat for us. 
Without the means of supporting themselves and their children, 
battered women cannot be free from the violence and control of 
their abusive partners. The National Research Center and others 
will continue to advocate for victims in domestic violence as 
State implementation of TANF and child support enforcement 
programs proceed. We urge you to continue to support States and 
their efforts to balance safety and self-sufficiency. Thank you 
for allowing us to testify.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]60898A.061
    
    [GRAPHIC] [TIFF OMITTED]60898A.062
    
    [GRAPHIC] [TIFF OMITTED]60898A.063
    
    [GRAPHIC] [TIFF OMITTED]60898A.064
    
    [GRAPHIC] [TIFF OMITTED]60898A.065
    
    [GRAPHIC] [TIFF OMITTED]60898A.066
    
    [GRAPHIC] [TIFF OMITTED]60898A.067
    
    [GRAPHIC] [TIFF OMITTED]60898A.068
    
    [GRAPHIC] [TIFF OMITTED]60898A.069
    
    [GRAPHIC] [TIFF OMITTED]60898A.070
    
    [GRAPHIC] [TIFF OMITTED]60898A.071
    
    [GRAPHIC] [TIFF OMITTED]60898A.072
    
    [GRAPHIC] [TIFF OMITTED]60898A.073
    
    [GRAPHIC] [TIFF OMITTED]60898A.074
    
    [GRAPHIC] [TIFF OMITTED]60898A.075
    
    [GRAPHIC] [TIFF OMITTED]60898A.076
    
    Mr. Camp. Thank you very much. Ms. Pearson, I have a few 
questions.
    Ms. Pearson. Sure.
    Mr. Camp. Two-thirds of the women who applied for the good 
cause exception indicated that they were worried about the fear 
of further abuse. However, their applications were denied 
because they didn't produce sufficient documentation of past 
abuse. Is this documentation specifically required in Federal 
law or is it something State agencies have the power to change?
    Ms. Pearson. These are State agency requirements.
    Mr. Camp. Ms. Krenek, do you have any estimates of the 
number of women who are actually harmed by cooperating with 
child support enforcement?
    Ms. Krenek. Not yet. No it's a fairly new area for 
gathering statistics. There isn't much research available.
    Mr. Camp. Do you know to the extent which States that are 
implementing some of the approaches? The extent to which they 
are that you outlined in your testimony?
    Ms. Krenek. No. In fact, those are very new as well. I can 
speak to the one in the State of Wisconsin, it began just in 
July of this year--so it's very hard for us to tell whether or 
not they're going to work. We do know in one county of 
Wisconsin, that very few battered women want the good cause 
exception because they have to have child support in order to 
survive--they're working minimum wage jobs.
    Mr. Camp. I think I understood your testimony to say--you 
know have some caution here and wait until the research is more 
complete.
    Ms. Pearson. Right.
    Mr. Camp. You named a number of States----
    Ms. Pearson. That's right.
    Mr. Camp [continuing]. That are working on that in your 
written testimony. Before we address this clause, there's an 
exception issue here--do you have any further detail on what 
some of the research questions are in this----
    Ms. Pearson. Yes.
    Mr. Camp [continuing]. When we're likely to see some 
information or results come back.
    Ms. Pearson. There were a number of awards made by the 
Federal Office of Child Support Enforcement last September. 
They were effective October 1. They're three-year demonstration 
projects. In several cases, for example--in Massachusetts, 
there's an attempt to try and identify the incidence of--
domestic violence among applicants for public assistance. 
Levels of interest and exemptions and waivers for not only 
child support requirements but other TANF requirements dealing 
with work requirements, time limits are being studied. 
Experimentation with different methods of identifying victims 
of domestic violence. Comparing direct screening, direct 
questioning versus notification procedures where written 
documents--written notification about the ability or the 
opportunities to disclose are merely presented. I think that 
we're really looking at the--numbers coming out in the next 18 
months. Something of that sort takes a while to do.
    Minnesota is experimenting with types of issues. New York 
State will be doing that too. They have just released an 
announcement for an evaluation contractors to get involved with 
a study. So they're really in their infancy--their early 
stages. I think that was the intent of the Federal Office of 
Child Support Enforcement when it announced these initiatives--
the desire to get some good empirical information in this area. 
That's why this Colorado study is, to my knowledge, is the only 
one that we have.
    Mr. Camp. Do you think there's enough flexibility in the 
current welfare reform law to address the needs of victims of 
domestic violation?
    Ms. Pearson. At this point, I think there is, particularly 
with the Wellstone-Murray which allow States to exempt victims 
of domestic violence and to take domestic violence into 
account. I think there's a tremendous amount of variation even 
within States--jurisdiction by jurisdiction--about how these 
women or how these victims are identified and accorded 
treatment. For that reason, I think the collaborations with 
domestic violence professionals and public assistance agencies, 
and child support agencies are important so there is some 
mutual training and education and some of the best methodology 
that will inspire sensitive treatments will be used by an 
agency.
    Mr. Camp. Then one last question, Ms. Krenek. Can you 
describe some of the ways that TANF and child support offices 
have collaborated to help battered women get the information 
they need? Are you aware of those?
    Ms. Krenek. Yes. Well, I can give you one example of a 
project that I coordinate in LaCrosse, Wisconsin as a 
federally-funded project awarded by the Department of Health 
and Human Services. We have an economic advocate who is hired 
by the battered women's program and placed in the economic 
support division office. Women are referred to her when 
domestic violence has been disclosed. LaCrosse Dept. of Social 
Services have been working with us--they provide us free space, 
all of the copying and clerical work. They're working with us 
on different methods of voluntary disclosure to help battered 
women. Then we do case management with them on what is the best 
course of action to take at this point. They have been willing 
to allow us to critique their methods and it has provided some 
interesting results in how battered women are viewed within the 
system. Many women don't disclose to economic support workers 
but do disclose to economic advocates. We will be following 
women for one year to find out what the obstacles are for that 
group of women versus the women who either don't disclose or 
have not been abused. So it's a really great effort and 
collaboration.
    We also did a piece with the State Department of work force 
development which is the administering agency in Wisconsin. In 
that we collaborated on the training manual on domestic 
violence that all economic support workers in Wisconsin 
received. So we've done some team training with them as well.
    Mr. Camp. Thank you. I believe that ends all of our 
questioning today. I used to serve on my local council on 
domestic violence.
    Ms. Krenek. Oh really?
    Mr. Camp. So I appreciate your testimony here today. Thank 
you for coming. It may have been mentioned your written 
comments will be part of the record.
    Ms. Krenek. Thank you.
    Mr. Camp. This hearing is adjourned.
    [Whereupon, at 4:43 p.m., the hearing adjourned subject to 
the call of the Chair.]
[GRAPHIC] [TIFF OMITTED]60898A.077

[GRAPHIC] [TIFF OMITTED]60898A.078

[GRAPHIC] [TIFF OMITTED]60898A.079

[GRAPHIC] [TIFF OMITTED]60898A.080

[GRAPHIC] [TIFF OMITTED]60898A.081

[GRAPHIC] [TIFF OMITTED]60898A.082

[GRAPHIC] [TIFF OMITTED]60898A.083

[GRAPHIC] [TIFF OMITTED]60898A.084

[GRAPHIC] [TIFF OMITTED]60898A.085

[GRAPHIC] [TIFF OMITTED]60898A.086

[GRAPHIC] [TIFF OMITTED]60898A.087

[GRAPHIC] [TIFF OMITTED]60898A.088

[GRAPHIC] [TIFF OMITTED]60898A.089

[GRAPHIC] [TIFF OMITTED]60898A.090

[GRAPHIC] [TIFF OMITTED]60898A.091

[GRAPHIC] [TIFF OMITTED]60898A.092

[GRAPHIC] [TIFF OMITTED]60898A.093

[GRAPHIC] [TIFF OMITTED]60898A.094

[GRAPHIC] [TIFF OMITTED]60898A.095

[GRAPHIC] [TIFF OMITTED]60898A.096

[GRAPHIC] [TIFF OMITTED]60898A.097

[GRAPHIC] [TIFF OMITTED]60898A.098

[GRAPHIC] [TIFF OMITTED]60898A.099

[GRAPHIC] [TIFF OMITTED]60898A.100

[GRAPHIC] [TIFF OMITTED]60898A.101

[GRAPHIC] [TIFF OMITTED]60898A.105

                                <greek-d>

</pre></body></html>
